United States Attorney William J. Hochul, Jr.
Western District of New York


 FOR IMMEDIATE RELEASE                  CONTACT:           Barbara Burns
 September 22, 2011                     PHONE:           (716) 843-5817
 www.usdoj.gov/usao/nyw                 FAX:             (716) 551-3051



         IRONDEQUOIT WOMAN PLEADS GUILTY TO SOCIAL SECURITY FRAUD

    ROCHESTER, N.Y.-- U.S. Attorney William J. Hochul, Jr. announced today that Cheryl
Gurjansky, 49, of Irondequoit, NY, pleaded guilty before U.S. District Judge Charles J.
Siragusa, to theft of government funds. The charge carries a maximum penalty of 10
years in prison, a fine of $250,000 or both.

     Assistant U.S. Attorney Marisa J. Miller, who handled the case, stated that the
defendant unlawfully obtained Social Security Insurance Survivor Benefits in the amount
of approximately $24,600. Gurjansky applied for benefits from the Social Security
Administration for one of her minor children, following the death of her then-husband,
while knowing that the child was not fathered by the deceased and thus was not
entitled to such benefits.

    The plea is the culmination of an investigation on the part of Special Agents of the
Social Security Administration - Office of Inspector General, under the direction of
Special Agent In Charge Edward J. Ryan.

    Sentencing is scheduled for Jan. 4, 2012, at 10 a.m. EST, in Rochester, N.Y., before
Judge Siragusa.


####
